HHS/OIG-Audit--"King County Medical Blue Shield, Seattle, Washington,
Audit of Termination Costs Under Medicare Contract, (A-10-95-00003)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"King County Medical Blue Shield, Seattle, Washington, Audit of Termination
Costs Under Medicare Contract No. HCFA 90-045-2," (A-10-95-00003)
November 27, 1995
Complete Text of Report is available in PDF format
(205 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our audit of costs claimed for reimbursement
by King County Medical Blue Shield that related to the termination of its Medicare
contract with the Health Care Financing Administration. Of the $1,895,823 claimed,
the audit disclosed that $539,021 was considered not acceptable for reimbursement.
The unacceptable costs consisted of (i) costs related to continuing activities
subsequent to the contract termination date ($105,797); (ii) severance and incentive
costs ($210,989); (iii) facilities costs involving a related organization ($100,697);
(iv) professional fees for an outside consultant ($107,184); and, (v) costs
claimed for separate organizations that assisted in processing Medicare claims
($14,354).